Highlights
Table of Contents




                    Customer
                    Retention
Findings
Recommendations




                    Audit Report
                    Report Number
                    MS-AR-14-008

                    September 25, 2014
Appendices




                                         Print
Highlights
Table of Contents




                    Highlights                         Background                                                                  The Postal Service lost            and             of revenue
                                                                                                                                   in FYs 2012 and 2013, respectively, because commercial
                                                       The U.S. Postal Service has a significant customer base,
                                                                                                                                   customers reduced their spending — termed “churn” — or left
                                                       ranging from residential customers to large commercial mailers.
                                                                                                                                   the Postal Service altogether — termed “defection.” Revenue
                                                       Commercial mailers account for most of the Postal Service’s
                                                                                                                                   losses from customer churn and defection have exceeded new
                                                       revenue — 71 percent ($46 billion) in fiscal year (FY) 2013.
                                                                                                                                   revenue in 2 of the past 3 years.
Findings




                            The Postal Service lost
                                           and
                                                                        Reasons for Churn or Defection with Percentage of
                                    of revenue in
                                                                                  Respondents Citing Reason*
                               FYs 2012 and 2013,
Recommendations




                             respectively, because
                            commercial customers
                            reduced their spending
                          (termed churn) or left the
                          Postal Service altogether
                               (termed defection).            Roll or click on the icons above to reveal the percentage and reason for client turnover.
Appendices




                                                               Source: Interview or survey responses from 513 current and former Postal Service customers.
                                                               Note: *Total does not equal 100 percent because customers could cite more than one reason.




                    Customer Retention
                    Report Number MS-AR-14-008
                                                                                                                                                             Print                                 1
Highlights
Table of Contents




                                                 The Postal Service has implemented customer retention efforts,    collaboration among the sales and operations groups when
                                                 including making changes to its Sales organization, enhancing     handling customer problems.
                                                 its analytics to predict which customers it risks losing, and
                                                 operating customer retention call centers.                        We noted that limited information sharing may also be
                                                                                                                   impeding efforts to retain customers. Leading practices show
                                                 Our objective was to evaluate the effectiveness of the            that retention can improve if departments effectively share
Findings




                                                 Postal Service’s customer retention strategies. We focused on     information about customers at risk of reducing their spending.
                                                 the customer service and operational issues that hindered the
                                                 Postal Service’s retention efforts as they were (a) identified    Finally, the Postal Service’s retention strategy does not include
                                                 by customers we surveyed as key reasons they churned or           a process to contact former customers. Leading practices
                                                 defected and (b) primarily within the Postal Service’s control.   recommend reaching out to former customers to reestablish
                                                                                                                   business relationships.
                                                 What the OIG Found
Recommendations




                                                                                                                   By addressing the issues outlined in this report, which are
                                                 While the Postal Service’s revenue loss from customer churn
                                                                                                                   within its control, the Postal Service could significantly reduce
                                                 and defection decreased by            from FYs 2012 to 2013,
                                                                                                                   churn and defection. We estimate improvements to the
                                                 the magnitude of this problem continues to have a significant
                                                                                                                   Postal Service’s retention strategies could prevent
                                                 impact on its revenue and financial outlook.
                                                                                                                   of revenue loss from customer churn and defection in FY 2014.

                                                 Enhancements to the Postal Service’s current customer
                                                 retention strategies could mitigate further revenue loss.         What the OIG Recommended
                                                 Specifically, many customers we surveyed cited service and        We recommended the Postal Service enhance the effectiveness
                                                 operational issues as key factors in their decision to reduce     of its customer retention efforts by implementing strategies to
                                                 their business with or leave the Postal Service. To address       promote organization-wide collaboration for handling customer
                                                 these issues, the Postal Service needs to implement an            service and operational problems that could lead to churn or
Appendices




                                                 effective strategy to promote collaboration among the Sales and   defection, effectively sharing information on at-risk customers,
                                                 operations groups. This approach is in line with best-in-class    and reaching out to former customers.
                                                 organizations, which reduce churn and defection by increasing


                    Customer Retention
                    Report Number MS-AR-14-008
                                                                                                                                           Print                                       2
Highlights
                    Transmittal Letter


                                                 September 25, 2014
Table of Contents




                                                 MEMORANDUM FOR:	           WILLIAM C. RUCKER III
                                                 				                       VICE PRESIDENT, SALES

                                                 				                       DAVID E. WILLIAMS, JR
                                                 				                       VICE PRESIDENT, NETWORK OPERATIONS

                                                 				                       KELLY M. SIGMON
                                                 				                       VICE PRESIDENT, RETAIL AND CUSTOMER SERVICE
                                                 				                       OPERATIONS

                                                                                 E-Signed by Janet Sorensen
                                                                            VERIFY authenticity with eSign Desktop
Findings




                                                 				
                                                 FROM: 			                  Janet M. Sorensen
                                                 				                       Deputy Assistant Inspector General
                                                 				                        for Revenue and Resources

                                                 SUBJECT: 			               Audit Report – Customer Retention
Recommendations




                                                 				                       (Report Number MS-AR-14-008)

                                                 This report presents the results of our audit of the U.S. Postal Service’s Customer
                                                 Retention (Project Number 13RG032MS000).

                                                 We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                 questions or need additional information, please contact Joseph Wolski, director, Sales
                                                 and Marketing, or me at 703-248-2100.

                                                 Attachment

                                                 cc:	   Corporate Audit and Response Management
Appendices




                    Customer Retention
                    Report Number MS-AR-14-008
                                                                                                                        Print              3
Highlights
                    Table of Contents

                                                 Cover
                                                 Highlights.......................................................................................................1
                                                  Background.................................................................................................1
                                                  What the OIG Found...................................................................................2
Table of Contents




                                                  What the OIG Recommended.....................................................................2
                                                 Transmittal Letter...........................................................................................3
                                                 Findings.........................................................................................................5
                                                  Introduction.................................................................................................5
                                                  Conclusion..................................................................................................7
                                                  Organization-Wide Collaboration................................................................7
                                                  Information Sharing.....................................................................................8
                                                  Contacting Former Customers....................................................................9
                                                 Recommendations......................................................................................10
                                                  Management Comments...........................................................................10
Findings




                                                  Evaluation of Management’s Comments.................................................. 11
                                                 Appendices..................................................................................................12
                                                  Appendix A: Additional Information...........................................................13
                                                    Background............................................................................................13
                                                    Objective, Scope, and Methodology.......................................................14
Recommendations




                                                    Prior Audit Coverage..............................................................................16
                                                  Appendix B: Management’s Comments....................................................17
                                                 Contact Information.....................................................................................22
Appendices




                    Customer Retention
                    Report Number MS-AR-14-008
                                                                                                                                        Print                         4
Highlights
                    Findings                             Introduction
                                                         This report presents the results of our audit of the U.S. Postal Service’s customer retention (Project Number 13RG032MS000).
                                                         Our objective was to evaluate the effectiveness of the Postal Service’s customer retention strategies. See Appendix A for additional
                                                         information about this audit.

                                                         The Postal Service has a significant customer base, ranging from residential customers to large commercial mailers. Commercial
                                                         mailers accounted for 71 percent of Postal Service revenue ($46 billion) in fiscal year (FY) 2013. These mailers include both large
                            Losses from customer         and small businesses that mail a broad range of products — including First-Class and Standard Mail, parcels, and periodicals —
Table of Contents




                                                         to domestic and international recipients.
                              churn and defection
                          exceeded gains from new        The Postal Service lost             ,           , and           of revenue in FYs 2011-2013, respectively, from its commercial
                                                         mailers as a result of churn and defection. Customer churn is defined as customers who reduced their spending with the
                     revenue in 2 of the last 3 years.   Postal Service, while defection is defined as customers who left the Postal Service altogether. As shown in Figure 1, losses from
                                                         customer churn and defection exceeded gains from new revenue in 2 of the last 3 years.

                                                         Figure 1: Revenue Change From Existing Commercial Customers
Findings




                                                                                                                                                     Growth and New Revenue

                                                                                                                                                     Churn and Defection (losses)
Recommendations




                                                                             FY 2011                   FY 2012                   FY 2013     TOTAL

                                                         Sources: Customer Data Mart (CDM) and Postal Service officials.
                                                         Note: New Revenue is defined as increased spending by existing and new customers.
Appendices




                    Customer Retention
                    Report Number MS-AR-14-008
                                                                                                                                                     Print                                   5
Highlights                                       We surveyed Postal Service customers who reduced their spending or left the Postal Service altogether, and identified multiple
                                                 reasons for their actions such as customer service and quality issues, operational issues (including burdensome rules and
                                                 regulations), and electronic diversion. Table 1 has additional information on these survey results.

                                                 Table 1: Responses to U.S. Postal Service Office of Inspector General (OIG)
                                                 Customer Survey Question Asking Why They Left the Postal Service

                                                                                                                                                                       Percentage of
                                                      Question: If you have left the Postal Service what were                                                           Respondents
Table of Contents




                                                          the main reasons why (select all that apply):                                              Count             Citing Reason*
                                                  Customer service/service quality                                                                      114                   23.2%
                                                  Lack of resolution to issues at the Postal Service                                                     93                   18.9%
                                                  Competitor offered better value                                                                        66                   13.4%
                                                  Operational issues                                                                                     62                   12.6%
                                                  Different product/service offerings                                                                    25                    5.1%
                                                  Stopped mailing altogether                                                                             14                    2.9%
                                                  Other**                                                                                               117                   23.8%
                                                  Source: Interview or survey responses from 513 current and former Postal Service customers.
                                                  * Customers could answer in more than one category. Percent equals the ratio of total answers.
Findings




                                                  ** “Other” included responses related to the following: poor customer service, unreliable delivery, inconsistent mail pickup, rigid pricing,
                                                  easier to ship with competitor, poor scanning, and difficult claims process.



                                                 Some of these factors identified in our survey are more easily controlled by the Postal Service than others. For example, customer
                                                 service and service quality are more easily controlled by the Postal Service, while stopping mailing altogether is not. However,
                                                 only 2.9 percent of respondents indicated that “stopping mailing altogether” was a main reason they left the Postal Service.
                                                 Alternatively, when we surveyed Postal Service employees who frequently interact with customers,1 they indicated that the
                                                 “decreased demand for mailing and shipping services” was the main reason that customers left the Postal Service in the
Recommendations




                                                 past 2 years.

                                                 In FY 2012, the Postal Service began laying the foundation for a customer retention program that mirrored industry best practices.
                                                 The Sales group made organizational changes to support customer retention and developed an analytical model to predict which
                                                 customers it risks losing. During FY 2013, a pilot program used output from the model to direct proactive contact with customers
                                                 from customer retention call centers. The Postal Service is planning to continue its progress in retaining revenue as part of
                                                 Delivering Results, Innovation, Value, and Efficiency (DRIVE)2 initiative 16: Acquire, Grow, and Retain Revenue.
Appendices




                                                 1	    We surveyed employees who work directly with or supervise employees that face business customers on a daily basis such as bulk mail entry unit clerks, postmasters,
                                                       and Consumer and Industry Contact managers.
                                                 2	    DRIVE is a management process the Postal Service uses to improve business strategy, development, and execution. The initiatives include cost cutting, revenue
                                                       generation, and capability enhancement.
                    Customer Retention
                    Report Number MS-AR-14-008
                                                                                                                                                                                             Print                           6
Highlights                                              Retaining customers is a challenge every business faces, and research shows that defection rates can typically range from
                                                        10 to 30 percent each year.3 While the Postal Service’s defection rate for its commercial customers was just below 12 percent
                                                        in FY 2013, the magnitude of this revenue loss becomes increasingly important considering its current financial challenges,
                                                        increasing competition in the postal marketplace, and changing customer demands. The Postal Service’s ability to deploy effective
                                                        retention strategies for reducing churn and defection will be important to retaining this revenue and enhancing the Postal Service’s
                                                        financial condition and outlook.


                         While the Postal Service’s     Conclusion
Table of Contents




                                                        While the Postal Service’s customer churn and defection decreased over                from FYs 2012 to 2013, the magnitude of this
                      customer churn and defection
                                                        problem continues to have a significant impact on its revenue and financial outlook. Enhancements to the Postal Service’s current
                      decreased over             from   customer retention strategies could help mitigate further revenue loss. Specifically, customers we surveyed cited customer service
                                                        and operational issues as key factors in their decision to reduce their business with or leave the Postal Service. Addressing these
                    FYs 2012 to 2013, the magnitude     issues requires effective coordination among the Sales and operations groups such as the Retail, Delivery, Human Resources,
                                                        and Transportation groups. For example, best-in-class organizations take steps to mitigate churn and defection by increasing
                        of this problem continues to    collaboration among the sales and operations groups when handling customer problems.
                     have a significant impact on its
                                                        In addition, we noted that limited information sharing may also be impeding efforts to retain customers. Leading practices show
                      revenue and financial outlook.    that retention can improve if a process is established by which departments effectively share information about customers at risk of
                                                        reducing their spending. Finally, we noted that the Postal Service’s retention strategy does not include a process to contact former
                                                        customers. Leading practices suggest proactively reaching out to former customers to reestablish business relationships.
Findings




                     Organization-wide collaboration    By addressing the issues within its control, the Postal Service could significantly reduce churn and defection. We estimate
                                                        improvements in these areas could prevent                 in lost revenue from churn and defection in FY 2014.
                            issues may be causing
                           service and operational
                                                        Organization-Wide Collaboration
                                                        Organization-wide collaboration issues may be causing service and operational problems that are driving customer churn and
                          problems that are driving
Recommendations




                                                        defection. First, many of the commercial mailers responding to our confidential survey4 cited service and operational problems as
                                                        factors in their decision to reduce their business with or leave the Postal Service altogether. Key categories that were identified in
                      customer churn and defection.
                                                        Table 1 included: customer service/service quality; lack of resolution of issues at the Postal Service; and operational issues. These
                                                        issues could be more easily addressed through improved organization-wide effort and coordination.

                                                        We also reviewed the DRIVE initiative 16 related to retaining revenue and found that it is primarily focused on sales employees. It
                                                        does not specifically address cross-functional collaboration focused on customer retention. Table 2 also shows that Postal Service
                                                        employees’ responses to a confidential survey highlight the impact of customer service and service quality on customer churn
                                                        and defection.
Appendices




                                                        3	   Frederick F. Reichheld and Thomas Teal, “The Loyalty Effect,” Harvard Business School Press © 2011.
                                                        4	   Our survey included 390 email surveys and 123 telephone interviews of customers who reduced their spending or left the Postal Service in 2013. Additional information
                                                             on our survey is provided in Appendix A.
                    Customer Retention
                    Report Number MS-AR-14-008
                                                                                                                                                                               Print                                                 7
Highlights                                       Table 2: Responses to OIG Survey Question to Select Postal Service Employees
                                                 Asking Why Customers Left the Postal Service

                                                                                                                                                                Postmasters and                Percent
                                                  Question: From your interactions                                    Clerks                Percent              Consumer and              Postmasters and
                                                  with customers, please mark the top                                Count of                Clerks             Industry Contact            Consumer and
                                                  3 reasons (with 1 being the most                                   Answers                Answers            Managers Count of           Industry Contact
                                                  significant reason) why customers left                             Ranking                Ranking            Answers Ranking            Managers Answers
                                                  the Postal Service over the last 2 years.                           1 or 2                 1 or 2                  1 or 2                 Ranking 1 or 2
Table of Contents




                                                  Decreased demand for mailing and                                        107                  35%                         641                       21%
                                                  shipping services
                                                  Better service quality (timeliness or                                   77                   25%                         822                       27%
                                                  consistency) from competitor
                                                  Better customer service from competitor                                 39                   13%                         479                       16%
                                                  Pricing - More favorable rates                                          29                    9%                         317                       10%
                                                  from competitor
                                                  Pricing - Other (more flexible, customizable
                                                                                                                          30                   10%                         418                       14%
                                                  rates) from competitor
                                                  Better product and service offerings                                    28                    9%                         377                       12%
                                                  from competitor
                                                  Source: Survey responses from 206 bulk mail entry unit clerks and 1,851 postmasters and Consumer and Industry Contact managers.
Findings




                                                 Best-in-class organizations take steps to increase collaboration between the sales and operations groups to handle customer
                                                 problems that could lead to churn or defection.5 Postal Service retention officials agreed that for the retention process to be
                                                 effective, operations employees throughout the organization — such as those from retail, delivery, transportation, human
                                                 resources — must be aware of their important roles in retaining customers and commit to collaboratively resolve customer issues.

                                                 While we recognize that operations employees have many priorities and goals, customer retention can improve if departments
Recommendations




                                                 collaborate to address customer issues. We estimate that collaboratively resolving the customer issues we identified could prevent
                                                              in lost revenue in FY 2014 (and         between FYs 2012 and 2015).

                                                 Information Sharing
                                                 Limited information sharing may also be impeding efforts to retain customers. Specifically, Postal Service employees best
                                                 able to resolve a customer’s issues may not be aware the Postal Service risks losing that customer because analytical model
                                                 data showing this risk are not shared outside of the Sales organization. For example, over 30 Postal Career Executive Service
                                                 (PCES) managers we met with stated that no information about which customers were at risk of leaving the Postal Service was
                                                 shared with them. As PCES managers are key to overseeing Postal Service operations and promoting quality service, the lack of
                                                 information could severely hinder their ability to work with these customers and retain their business.
Appendices




                                                 5	   We commissioned primary research interviews with stakeholders at leading organizations that have direct insight into successfully determining, distributing, and
                                                      monitoring revenue and sales targets at their organizations. Their research was conducted with five best-in-class organizations, four of which are in the delivery services
                                                      sector. The results of their research are included throughout this report.
                    Customer Retention
                    Report Number MS-AR-14-008
                                                                                                                                                                                 Print                                              8
Highlights                                       Likewise, often customers will let Postal Service employees know when they are considering leaving, or have decided to leave, the
                                                 Postal Service. For example, 69 percent of employees who responded to our confidential survey said customers told them directly
                                                 of their intentions to leave. Our survey showed, however, that a third of those employees who had knowledge that a customer
                                                 was leaving did nothing with that information. While we recognize that two-thirds of the employees who responded to our survey
                                                 stated they acted on this information, we still found that there is no process for the employees to share that information with those
                                                 capable of resolving customers’ issues.

                                                 Leading practices from best-in-class organizations show that customer retention can improve if departments effectively share
                                                 information about customers at-risk of defection. So while the Postal Service’s processes for collecting key information on what
Table of Contents




                                                 customers are at-risk have improved from the use of its analytical model, implementing a strategy to share this information could
                                                 improve the effectiveness of the Postal Service’s retention efforts.

                                                 Contacting Former Customers
                                                 The Postal Service does not reach out to former customers to reestablish business relationships. As such, the Postal Service has
                                                 overlooked the benefits of contacting former customers. Best practices6 show doing so could help the Postal Service:

                                                 ■■ Stop negative publicity that former customers may generate.

                                                 ■■ Identify the reasons customers leave so it can take steps to address them.
Findings




                                                 ■■ Renew the business relationship.

                                                 Research shows that (a) companies are twice as likely to get a former customer back as they are to obtain a new customer,7
                                                 (b) it costs six to seven times more to acquire a new customer than to keep an existing one, and (c) a company is four times more
                                                 likely to make a sale with an existing customer than with a new prospect.8 Experts also recommend treating former customers as
                                                 leads that deserve attention.9
Recommendations




                                                 Contacting former customers could also enhance existing processes. Postal Service officials stated they want to expand
                                                 their analytical model to analyze the reasons customers left. Contacting former customers could provide these reasons. The
                                                 Postal Service could also transfer information about former customers to the funnel management program—a program that
                                                 provides a prioritized list of sales leads to sales personnel. We estimate implementing a strategy to contact and engage with
                                                 former customers could have resulted in                 in additional revenue in FY 2014 (and            in FYs 2012 through 2015).
Appendices




                                                 6	   Griffin, J., Customer Loyalty: How To Earn It How to Keep It, 2nd ed., Josey-Bass/John Wiley 2002. Chapter 3.
                                                 7	   Pruden, D., How to Win Back Lost Customers,” Direct Marketing to Business Report, October 1995, page 7. Cited in Griffin, J. Customer Loyalty: How To Earn It How to
                                                      Keep It, 2nd ed., Josey-Bass/John Wiley 2002. Chapter 3.
                                                 8	   Dunford, A. “Customer Retention: 7 Ideas for Marketers,” Rocket Watcher Startup Marketing http://www.rocketwatcher.com/blog/2011/06/customer-retention-7-ideas-for-
                                                      marketers.html, June 2011.
                                                 9	   Dunford, A. “Customer Retention: 7 Ideas for Marketers.” June 2011.
                    Customer Retention
                    Report Number MS-AR-14-008
                                                                                                                                                                       Print                                                 9
Highlights
                    Recommendations                     We recommend the vice president, Sales, in collaboration with the vice president, Network Operations and vice president,
                                                        Retail and Customer Service Operations:

                                                        1.	 Implement a strategy to improve the effectiveness of the Postal Service’s customer retention efforts by promoting
                                                            organization-wide collaboration for handling customer service and operational problems that could lead to churn or
                                                            defection and effectively sharing information on at-risk customers.

                                                        We recommend the vice president, Sales:
                       We recommend management
Table of Contents




                           implement a strategy to      2.	 Implement a strategy to improve the effectiveness of the Postal Service’s customer retention efforts by reaching out to
                                                            former customers.
                        improve the effectiveness of
                      the Postal Service’s customer     Management Comments
                                                        Management agreed in principle with the findings and partially agreed with the recommendations. Management did not agree
                      retention efforts by promoting    with certain portions of the report or the estimated monetary impact.
                     organization-wide collaboration
                                                        Management disagreed with our analysis about reasons customers left the Postal Service, stating that “stopping mailing
                            for handling customer       altogether” and “decreased demand for mailing and shipping services” are two different reasons mailers may churn and defect.
                                                        Management also disagreed with our finding that limited information sharing may be impeding efforts to retain customers, stating
                           service and operational      that the DRIVE process facilitates this dialogue and collaboration. Management also disagreed with our finding that organization-
Findings




                          problems that could lead      wide collaboration issues may be causing service and operational problems that are driving churn and defection, stating the
                                                        DRIVE process and meetings between operations and marketing foster a collaborative environment. Management also disagreed
                          to churn or defection and     with our analysis related to the information we collected from the 30 PCES managers, questioning the selection process and their
                                                        direct involvement with customers.
                      effectively sharing information
                             on at-risk customers.      Regarding recommendation 1, management partially agreed with our finding stating that increased collaboration would be
                                                        beneficial. Management stated the Customer Retention team responds to information inputs from the Help Desk and
Recommendations




                                                        Customer Service groups, and has a targeted implementation date to examine the feasibility of including data feeds from
                                                        these groups in the retention model by September 30, 2015. Management also stated the retention model will include
                                                        Business Service Network (BSN) service request data from all managed customers with a targeted implementation date of
                                                        September 30, 2014. Management disagreed with our monetary impact estimate, however, questioning the use of our
                                                        16 percent factor and our survey response rate and methodology.

                                                        Regarding recommendation 2, management partially agreed with our recommendation and stated it would be beneficial for their
                                                        retention program to reach out to former customers. Management stated its FY 2015 retention plans calls for Sales Retention
                                                        Team sites to reach out to defected customers with a targeted implementation date of July 31, 2015. Management disagreed with
                                                        our estimated revenue impact, questioning our survey methodology and calculations.
Appendices




                                                        See Appendix B for management’s comments, in their entirety.




                    Customer Retention
                    Report Number MS-AR-14-008
                                                                                                                                                   Print                               10
Highlights                                       Evaluation of Management’s Comments
                                                 The OIG considers management’s comments responsive to the recommendations and corrective actions should resolve the
                                                 issues identified in the report.

                                                 Regarding management’s comment of our categorization of “stopping mailing altogether” and “decreased demand for mailing and
                                                 shipping services”, we agree that they are two separate issues. We surveyed customers who had “stopped mailing altogether”
                                                 believing they were in the best position to describe their reason for churn or defection. We also surveyed Postal Service
                                                 employees to see how their views of root causes of churn and defection related to the mailer responses. We used the broader
Table of Contents




                                                 category of “decreased demand for mailing and shipping services”, as it would encompass both those who left the mail altogether
                                                 or just reduced their mailing and shipping spending.

                                                 Regarding management’s disagreement with our findings that (a) limited information sharing may be impeding efforts to retain
                                                 customers and (b) organization-wide collaboration issues may be causing service and operational problems that are driving churn
                                                 and defection, our audit work and survey results support that some churn and defection stems from these issues. Going forward,
                                                 the actions outlined by management — the DRIVE process and meetings between operations and marketing — will create a
                                                 sufficiently collaborative environment as we recommended.

                                                 Regarding management’s disagreement with our analysis from our interviews with the 30 PCES managers, we feel these
                                                 interviews, while judgmentally selected, were reliable for our audit work. These managers oversee Postal Service operations
                                                 and promoting quality service. Furthermore, we presented information on their views of information sharing internal to
Findings




                                                 the Postal Service – actions that do not require direct involvement or communication with mailers.

                                                 Regarding management’s disagreement with our monetary impact calculation for recommendation 1, we continue to believe the
                                                 16 percent adjustment factor is a reasonable estimate based on our survey results from which we allowed respondents to select
                                                 more than one reason they churned or defected. So while we agree with management that revenue lost due to churn per customer
                                                 can vary, we felt that giving respondents the opportunity to select more than one reason they churned would help normalize the
                                                 responses. We also felt that the response rate was reasonable and that the additional value from adding in the specific churn
Recommendations




                                                 and defection related-input from the additional 123 commercial customers referred to us by Postal Service officials would offset
                                                 potential bias concerns.

                                                 Regarding management’s disagreement with our monetary impact calculation for recommendation 2, our customer survey results
                                                 showed that 94 percent stated they were not contacted when they reduced or ceased their business with the Postal Service.
                                                 Furthermore, our universe of mailers was taken directly from the Postal Service’s Customer Data Mart.

                                                 The OIG considers all the recommendations significant, and therefore requires - concurrence before closure. Consequently, the
                                                 OIG requests written confirmation when corrective actions are completed. These recommendations should not be closed in the
                                                 Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendations can be closed.
Appendices




                    Customer Retention
                    Report Number MS-AR-14-008
                                                                                                                                          Print                                   11
Highlights
                    Appendices

                                                        Appendix A: Additional Information...........................................................13
                                                         Background............................................................................................13
                                                         Objective, Scope, and Methodology.......................................................14
                         Click on the appendix title     Prior Audit Coverage..............................................................................16
Table of Contents




                                                        Appendix B: Management’s Comments....................................................17
                          to the right to navigate to
                              the section content.
Findings
Recommendations
Appendices




                    Customer Retention
                    Report Number MS-AR-14-008
                                                                                                                                          Print                     12
Highlights          Appendix A:                  Background
                    Additional Information       The Postal Service has a significant customer base, ranging from residential customers to commercial mailers that spend millions
                                                 on mailing and shipping each month. In FY 2012, the Postal Service lost nearly          in revenue to customers who either
                                                 reduced their spending with the Postal Service or left altogether (see Figure 2).

                                                 Figure 2: Total Churn and Defection, FYs 2011 to 2013
Table of Contents




                                                                       FY 2011               FY 2012               FY 2013
Findings




                                                 Sources: September 2013 Year-to-Date Churn Report and Postal Service May 2013 update.



                                                 Retaining customers is a major opportunity for many companies, since research shows that defection rates can typically
                                                 range from 10 to 30 percent each year.10 Research also shows that it costs six to seven times more to acquire a new customer
                                                 than it does to keep an existing one, and a company is four times more likely to close a sale with an existing customer than with
                                                 a new prospect.11
Recommendations




                                                 To mitigate revenue loss from customer churn and defection, the Postal Service’s Business Customer Intelligence group
                                                 developed an analytical model to predict customers the Postal Service risks losing.12 During FY 2013, data from this model were
                                                 used by select Postal Service officials (for example, seven of the 67 BSN district13 offices and two specialized call centers) as part
                                                 of a pilot program to provide proactive outreach to a prioritized list of customers the Postal Service risks losing each month. The
                                                 Postal Service is expanding this program nationwide to the remaining 60 districts in FY 2014.

                                                 The Postal Service also reorganized the Sales department to increase focus on customer retention and expanded the Inside Sales
                                                 group to include its own revenue retention process. For example, it created a manager, Customer Retention, to oversee retention
                                                 efforts and a manager, Customer Relationship Management, to drive revenue growth with customers who have large revenue
                                                 growth potential.
Appendices




                                                 10	 Frederick F. Reichheld and Thomas Teal, “The Loyalty Effect,” Harvard Business School Press © 2011.
                                                 11	 Dunford, A. “Customer Retention: 7 Ideas for Marketers,” Rocket Watcher Startup Marketing http://www.rocketwatcher.com/blog/2011/06/customer-retention-7-ideas-for-
                                                     marketers.html, June 2011.
                                                 12	 Decision Analysis Report Business Case, CDM Customer Retention, August 10, 2012, page 1.
                                                 13	 The BSN is a group within the Consumer and Industry Affairs Department assigned to the larger commercial accounts, and that performs such activities as responding to
                                                     service requests and providing other information.
                    Customer Retention
                    Report Number MS-AR-14-008
                                                                                                                                                                      Print                                            13
Highlights                                       The Postal Service also focused on revenue retention as part of various DRIVE initiatives, including:

                                                 ■■ Initiative 16: Acquire, Grow, and Retain Revenue – Nurture existing customers with key account managers and retention
                                                    strategies. Increase revenue growth.

                                                 ■■ Initiative 25: Improve Customer Experience – Optimize BSN structure to meet customer needs.


                                                 Objective, Scope, and Methodology
Table of Contents




                                                 Our objective was to evaluate the effectiveness of the Postal Service’s retention strategies. To accomplish our objective, we:

                                                 ■■ Reviewed the Postal Service’s customer retention strategies, targets, goals, and processes; and visited a customer
                                                    retention call center.

                                                 ■■ Reviewed confidential surveys from 1,851 Consumer and Industry Contact managers and postmasters assigned to level 18
                                                    and above post offices14 and 206 business mail entry unit clerks to determine employee engagement in customer retention.

                                                 ■■ Reviewed confidential surveys from, or interviewed, 513 customers to determine reasons they reduced their business or
                                                    left the Postal Service. More specifically, we sent surveys to 6,632 commercial customers identified in CDM as having the
                                                    fastest declining FY 2013 revenue, and received 390 responses. We supplemented these survey results with interviews with
                                                    123 other commercial customers who were referred to us as part of the survey of clerks, postmasters, and Consumer and
Findings




                                                    Industry Contact managers.

                                                 ■■ Obtained and analyzed FY 2012 data from the CDM, CustomerFirst!, and Enterprise Data Warehouse (EDW) databases.

                                                 ■■ Analyzed the Postal Service’s analytical model.

                                                 ■■ Interviewed Postal Service Headquarters, Sales, and Operations officials.
Recommendations




                                                 ■■ Interviewed members of the Mailers’ Technical Advisory Committee for their views on customer defection and retention.

                                                 ■■ Identified current incentives for customer retention, including:

                                                     ●● Management accountability (budgets and satisfaction surveys).

                                                     ●● Employee incentives to work cooperatively to retain existing customers.

                                                 ■■ Identified best customer retention practices and compared Postal Service strategies against those practices.
Appendices




                                                 14	 The Postal Service determines Post Office level based on factors such as workload, revenue, delivery points, and number of employees – generally, the higher the level,
                                                     the larger the office.
                    Customer Retention
                    Report Number MS-AR-14-008
                                                                                                                                                                       Print                                              14
Highlights                                       Our analysis focused on the customer service and service-related issues that hindered the Postal Service’s retention efforts, as
                                                 those were (a) identified by customers from our survey as being a key reason they churned or defected and (b) primarily under
                                                 the Postal Service’s control. We did not focus on other causes of churn and defection such as electronic diversion or pricing
                                                 regulations that were outside of the Postal Service’s control.

                                                 We conducted this performance audit from August 2013 through September 2014 in accordance with generally accepted
                                                 government auditing standards and included such tests of internal controls as we considered necessary under the circumstances.
                                                 Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
                                                 basis for our finding and conclusions based on our audit objective. We believe that the evidence obtained provides a reasonable
Table of Contents




                                                 basis for our finding and conclusions based on our audit objective. We discussed our observations and conclusions with
                                                 management on August 4 and 18, 2014, and included their comments where appropriate. We relied on computer-generated
                                                 financial data from the EDW and Accounting Data Mart (ADM) and customer data from the CDM. While we did not assess the
                                                 reliability of data in the ADM, the OIG tests financial information as part of its annual financial statement audits. We tested the data
                                                 from the CDM for reliability by comparing results to financial performance reports. We determined that the data were sufficiently
                                                 reliable for the purposes of this report.
Findings
Recommendations
Appendices




                    Customer Retention
                    Report Number MS-AR-14-008
                                                                                                                                               Print                                  15
Highlights                                       Prior Audit Coverage
                                                                                                                                                               Monetary Impact
                                                 Report Title                              Report Number                    Final Report Date                    (in millions)
                                                 Business Service Network                  MS-AR-14-005                          7/9/2014                             $764
                                                 Report Results: There are significant opportunities to increase the effectiveness of the Postal Service’s BSN – a network of
                                                 300 employees that supports nearly 23,000 large customers for service issues, information, and other requests. The OIG
                                                 recommended the Postal Service develop a strategy to increase BSN effectiveness by reducing the time it takes to resolve requests;
                                                 conducting customer outreach; enhancing the customer experience survey; and expanding the performance evaluation methodology
Table of Contents




                                                 for BSN staff. Management agreed with the findings and recommendations related to the recommendations on time needed to
                                                 resolve request and performance evaluation methodology. Management partially agreed with recommendations related to enhancing
                                                 customer outreach and the BSN survey. In particular, related to the recommendation on enhancing customer outreach, management
                                                 disagreed with our monetary impact of $764 million, stating that revenue generation is not a main mission of the BSN and that current
                                                 staff levels are insufficient to support the level of contact we recommended.
                                                 Small Business Growth                     MS-AR-13-009                          6/20/2013                            $810
                                                 Report Results: Postmasters and sales staff — the groups primarily responsible for generating revenue from small businesses
                                                 — were not always effective because the Postal Service has not made generating small business revenue a high priority for these
                                                 groups. Both organizational and operational issues not only hinder the effectiveness of the postmasters’ and Sales staff’s efforts, but
                                                 also hinder the Postal Service’s overall ability to generate revenue from current and potential small business customers. The OIG
                                                 recommended the Postal Service develop a strategy to increase the priority that postmasters and Sales staff place on generating
                                                 small business revenue. The OIG also made recommendations regarding postmaster involvement in civic organizations; Sales staff
Findings




                                                 interaction with postmasters; and the availability and use of sales-related tools, market data, and training. Management agreed with
                                                 the recommendation regarding the availability and use of sales-related tools, market data, and training, stating the strategies and
                                                 communications for this effort should be complete by June 2014. Management disagreed with the other recommendations and the
                                                 monetary impact of $810 million, stating that since they did not agree with all the recommendations, they did not believe the revenue
                                                 gain could be achieved.
                                                 Package Delivery Growth                    MS-AR-12-003                         5/4/2012                             $647
                                                 Report Results: Employees responsible for providing logistic and customer support to gain or retain a customer have different
                                                 goals. Sales employees’ performance evaluations are based entirely on revenue generation. Operations and support employees’
Recommendations




                                                 performance evaluations are based primarily on cost reduction – they have limited or no revenue generation incentives. The OIG
                                                 recommended the Postal Service establish a strategic decision-making process for evaluating new sales opportunities, enhance
                                                 the CustomerFirst! System, reassess Sales staffing levels, continue to pursue legislative change that will allow it to ship beer and
                                                 wine, and evaluate offering prepayment of customs duties and taxes and a local delivery product. Management agreed with our
                                                 findings and recommendations and set forth their plans for corrective actions. Management disagreed with the monetary impact of
                                                 $647 million in subsequent correspondence stating that, even with a reduced sales force, they have been able to increase sales by
                                                 focusing on higher value sales and sales execution.
Appendices




                    Customer Retention
                    Report Number MS-AR-14-008
                                                                                                                                               Print                                    16
Highlights          Appendix B:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Customer Retention
                    Report Number MS-AR-14-008
                                                 Print   17
                     Appendices   Recommendations   Findings   Table of Contents   Highlights




 Customer Retention
 Report Number MS-AR-14-008
Print
18
                     Appendices   Recommendations   Findings   Table of Contents   Highlights




 Customer Retention
 Report Number MS-AR-14-008
Print
19
                     Appendices   Recommendations   Findings   Table of Contents   Highlights




 Customer Retention
 Report Number MS-AR-14-008
Print
20
                     Appendices   Recommendations   Findings   Table of Contents   Highlights




 Customer Retention
 Report Number MS-AR-14-008
Print
21
Highlights
Table of Contents
Findings




                                                    Contact us via our Hotline and FOIA forms, follow us on social
                                                 networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                        or abuse. Stay informed.
Recommendations




                                                                       1735 North Lynn Street
                                                                      Arlington, VA 22209-2020
                                                                            (703) 248-2100
Appendices




                    Customer Retention
                    Report Number MS-AR-14-008
                                                                                                                          Print   22
